U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: John Shields v. United States of America,
S.Ct. No. 21-5042
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 29,
2021, and placed on the docket on July 8, 2021. The government’s response is due on August 9,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 8, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-5042
SHIELDS, JOHN
USA

DENNIS C. BELLI
536 HIGH ST.
F12
COLUMBUS, OH 43215-5785

